                                               NARA OIG Report No. 08-02




Office of Inspector General 


     Audit of NARA's 

  Purchase Card Program 



    OIG Report No. 08-02 


      November 14,2007 





                     1

National Archives and Records Administration
                                                                               NARA OIG Report No. 08-02


Executive Summary:

The National Archives and Records Administration (NARA) Office ofthe Inspector
General (OIG) performed an audit ofNARA's Purchase Card Program. The objectives
of our audit were to assess (1) compliance with laws and regulations, (2) efficiency of
operations, and (3) adequacy of management controls to help prevent fraud, waste and
abuse by cardholders or others who attempt to manipulate the program.

The purpose of the federal Purchase Card Programs is to minimize the paperwork needed
to make, with proper authorization, purchases. Although purchase cards provide
efficiency and savings to the government, Purchase Card Programs are high-risk because
they allow the same individual to order, pay for, and receive goods and services. This
offers the potential for fraud, abuse, and improper transactions if not carefully monitored.

From November 24,2005 through November 24,2006, NARA processed 21,367
transactions at a value of$11,479,509. We found no significant abuse from the sampled
items we reviewed and are encouraged by management's oversight of the Purchase Card
Program. However, opportunities exist to improve management controls and expand the
Purchase Card Program. Specifically, we found the following:

   • 	 Access to the Citibank Online Systems} needs to be updated to prevent users who
       no longer need access from accessing the purchase card related data, and to ensure
       proper authority of users.

   • 	 NARA's Purchase Charge Card Management Plan (Plan) does not address all the
       elements required by Office of Management and Budget (OMB) Circular A-123,
       Appendix B, Improving the Management ofGovernment Charge Card Programs.
       For example, NARA's Charge Card Management Plan does not include a
       description of how NARA will test the effectiveness of its controls over the
       purchase card program. Additionally some reviews and oversight functions
       performed by management are not included in current NARA policies and
       procedures.

   • 	 Procurement files maintained by the Acquisitions Service Division lacked 

       documentation supporting delegation of authority, spending limits, and 

       training. 


   • 	 NARA's listing of cardholders and approving officials maintained by the Finance
       Branch differs in spending limits, cardholders and approving officials from those
       reported in the Citibank Online System. In addition, we found two approving
       officials who were also cardholders and could potentially approve their own
       transactions.


1 NARA uses Citibank for purchase card services. Citibank Online Systems provide a broad range of
reporting and account maintenance functions including Web-based electronic access to detailed report
generation and online account maintenance.


                                                     1
                                National Archives and Records Administration
                                                                              NARA OIG Report No. 08-02



    • 	 In our test of a sample of transactions, we found instances where: 1) sufficient
        documentation did not exist supporting procurement requests and/or transactions;
        2) transactions over the micro-purchase threshold were not matched to the
        purchase orders created from PRISM2 ; 3) cardholders did not classify
        expenditures to the most appropriate budget object class code or fund; 4)
        accountable property was not recorded in NARA's Personal Property
        Management System; and 5) split purchases occurred.

We made 20 recommendations which, when implemented by management, will assist the
agency in enhancing the purchase card program to meet OMB Circular A-123, Appendix
B requirements.




2 PRISM is a procurement system which interfaces with the Bureau of the Public Debt (BPD) accounting
system that NARA uses. The PRISM system is used to enter purchase requests, purchase orders, contracts,
interagency agreements, and all purchase payments over $2,500 against existing awards that authorize
payment by purchase card.




                                                    2
                               National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


Background:

A U.S. government purchase card is an internationally accepted credit card issued by individual
contractors and available to personnel in all federal agencies under a single General Services
Administration (GSA) contract. The purpose of Purchase Card Programs is to minimize the
paperwork needed to make, with proper authorization, purchases. Although purchase cards
provide efficiency and savings to the government, Purchase Card Programs are high-risk because
they allow the same individual to order, pay for, and receive goods and services. This offers the
potential for fraud, abuse, and improper transactions if not carefully monitored.

Beginning in 2007, agencies were required to submit to Office of Management and Budget
(OMB) a charge card management plan as prescribed by OMB Circular A-123, Appendix B,
Improving the Management ofGovernment Charge Card Programs. NARA's Purchase
Charge Card Management Plan (Plan) outlines the policies and procedures for implementing
and managing the NARA purchase card program to ensure that a system of internal controls
is followed and to mitigate the potential for fraud, misuse, and delinquency. It establishes
guidelines for the proper use of purchase cards for acquiring supplies and services through
small purchase procedures. Based on this Plan, the Agency/Organization Program
Coordinator (AlOPC) oversees NARA's purchase card program. The NARA Citibank
Liaison establishes and maintains accounts; issues and destroys cards; serves as liaison
between the cardholder and the purchase card contractor; provides on-going advice; audits
purchase card accounts as required; and keeps necessary account information current. The
AlOPC and the NARA Citibank Liaison are both part of the Finance Branch (NABF). The
Director of the Acquisition Services Division (NAA) provides policy leadership in
acquisition and procurement management, approves procurement authority requests and
spending limits, and annually reviews previous fiscal year purchases.

A purchase cardholder is authorized to purchase necessary supplies, equipment, and non­
personal services up to the micro purchase limit. The cardholder must use the card in
compliance with procurement regulations; safeguard the card account number; obtain
approval from an approving official prior to purchase; review and reconcile electronic
Citibank statements; and ensure an audit trail is maintained. Contracting officers may
procure supplies and services over $2,500 using appropriate procurement procedures (i.e.,
purchase orders) and pay the vendor with the purchase card.

Approving Officials are responsible for approving purchases and monitoring the purchase
card account activity of their subordinate holders. Approving officials must verify all
cardholder transactions are legitimate government requirements; ensure regulations are
followed; verify the funds are appropriately allocated between accounting codes; and ensure
cardholders reconcile all transactions and maintain records to provide an audit trail for all
purchases. Monthly, each approving official must review and approve the on-line Citibank
statement for each of their subordinate cardholders.

In November 30, 2006, NARA had 212 purchase cardholders with an annual credit limit of
over $60 million and 83 approving officials. NAA lowered monthly credit limits and as of
September 2007 the annual financial risk decreased from $60 million to $20.6 million.


                                                3

                           National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


Objectives, Scope, and Methodology:

The objectives of our audit were to assess (1) compliance with laws and regulations,
(2) efficiency of operations, and (3) adequacy of internal or management controls to help
prevent fraud, waste and abuse by cardholders or others who attempt to manipulate the
program. The scope of this audit covered purchase card transactions made from
November 2005 through November 2006.

To accomplish our objective we:
   • 	 Reviewed relevant laws and regulations, NARA guidance pertaining to the
       purchase card program, and Citibank guidance.
   • 	 Held discussions with NARA staff and Citibank representatives to obtain an
       understanding of the purchase card program.
   • 	 Reviewed pertinent documentation related to selected transactions to test the
       effectiveness of controls.
   • 	 Obtained access to Citibank Online Systems in order to download and analyze
       NARA charge card transactions.
   • 	 Employed judgmental sampling focusing upon high-risk and large dollar
       transactions. Specifically, we examined 63 out of 21,367 transactions accounting
       for $349,772.63 out of$II,479,509 or 3% of the total purchases made from
       November 24, 2005 through November 24, 2006.
   • 	 Reviewed the procurement files for the selected cardholder and approving
       officials to verify their delegation of authority, spending limits and training.

The review was conducted at Archives II in College Park, MD and encompassed all
NARA programs. Our audit was performed from December 2006 through August 2007
and was conducted in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                                4

                           National Archives and Records Administration
                                                                             NARA OIG Report No. 08-02


Audit Findings
1. Access to eitibank Online Systems Not Terminated

Approving officials, users with account maintenance duties or read only access, are not
removed when access to Citibank Online Systems 3 are no longer needed. This condition
exists due to an oversight on the part of management. Specifically, management omitted
establishing controls ensuring access to Citibank Online Systems is terminated when
access is no longer needed. The National Institute of Standards and Technology (NIST)
Special Publication (SP) 800-12: Introduction to Computer Security: The NIST Handbook
states when user accounts are no longer required they should be terminated. When user
accounts are not terminated in a timely manner, former approving officials maintain the
capability to both approve and reallocate charges. Other former users are capable of
changing account data or accessing sensitive data, such as credit card account numbers.

There are no controls in place to ensure approving officials, Agency/Organization
Program Coordinators (AlOPC), financial managers, users with read only access, and
estatement approver's access rights are removed from the Citibank Online Systems when
the employee leaves NARA, no longer has purchase card related responsibilities, or no
longer has a need for purchase card data. It is due to an oversight on the part of
management that the NARA Employee Clearance Record (NA Form 3009) does not
include an area to ensure access to Citibank Online Systems is deactivated for all users
when leaving or transferring offices at NARA.

As a result, the AlOPC does not know when an approving official leaves the agency or
transfers in NARA. The approving officials continue to have access to the Citibank
Online Systems with the capability of approving and reallocating charges. Likewise, the
AlOPC does not know when users with account maintenance duties or read only access
leave the agency. These users continue to have access to the Citibank Online Systems
with the capability of changing account data or accessing sensitive or private information.

Based on NIST SP 800-12, effective administration of users' computer access is essential
to maintaining system security. When user accounts are no longer required, the
supervisor should inform the application manager and system management office so
accounts can be removed in a timely manner.

The risk of fraud increases as former approving officials maintain the capability of
approving and reallocating charges. In addition, the release of personally identifiable
information can result in substantial harm and inconvenience to individuals whose



3 Citibank Online Systems include four components. The Citibank® Online Statements system provides
online access to account statements for streamlined review and payment. The CitiDirect® Card
Management System provides online program administration, management and reporting. The CitiBank®
Custom Reporting System allows users to create custom reports from more than 600 data elements. The
CitiBank® Electronic Reporting System manages files and reports received online.


                                                   5
                              National Archives and Records Administration
                                                                               NARA OIG Report No. 08-02


infonnation is disclosed, and to the agency. It may also lead to identify theft or other
fraudulent use of the infonnation.

RECOMMENDATIONS

    1. 	 The Assistant Archivist of Administration should direct the NARA Citibank
         Liaison to deactivate User IDs not associated with valid and current users from
         Citibank Online Systems.

        Management Response:

        Management concurred with our recommendation.


    2. 	 The Assistant Archivist of Administration should direct the AlOPC to revise the
         Employee Clearance Record (NA Fonn 3009) to include the process of
         deactivating access to the Citibank Online Statement System and the Citibank
         Card Management System in accordance with NARA 205 Fonns Management
         procedures.

        Management Response:

        Management concurred with our recommendation.


    3. 	 The Assistant Archivist of Administration should require the NARA Citibank
         Liaison to review a report with Citibank Online System access infonnation at least
         annually to ensure controls for deactivating access are working as planned and to
         ensure users continue to have a need for access.

        Management Response:

        Management concurred with our recommendation.


2. 	 OMB Circular A-123, Appendix B Requirements Not Fully Addressed

NARA's Purchase Charge Card Management Plan (Plan) developed in response to Office
of Management and Budget (OMB) Circular A-123, Appendix B, Improving the
Management ofGovernment Charge Card Programs4 , outlines the policies and
procedures for implementing and managing the NARA Purchase Card Program to ensure


40MB requires agencies to maintain internal controls that reduce the risk of fraud, waste, and error in
government charge card programs. OMB Circular A-123, Appendix B establishes standard minimum
requirements and suggested best practices for government charge card programs, requires each agency to
maintain written policies and procedures for the appropriate use of charge cards consistent with the OMB
requirements, and requires each agency to develop and submit to OMB a charge card management plan.


                                                     6

                                National Archives and Records Administration
                                                                            NARA OIG Report No. 08-02


a system of internal controls is followed and to mitigate the potential for fraud, misuse,
and delinquency. However, NARA's Plan does not address all the elements required by
OMB Circular A-123, Appendix B. The NOPC stated this condition exists because all
procedures relating to the Purchase Card Program were not included in NARA's Plan. In
addition, the Director of the Acquisition Services Division (NAA) stated they lack
resources to address all risks in their review ofthe purchase card program and other
priorities come before revising outdated policy and procedures. With millions of dollars
a year at risk, it is important for NARA to establish controls and evaluate the
effectiveness of those controls over the purchase card program.

NARA's Plan identifies controls over the appointment/termination process, training,
monthly and annual monitoring of transactions for misuse and abuse. However, NARA's
Plan does not include a description of how it will ensure the ongoing effectiveness of
controls. For example, NARA's Plan states that "NARA Management is responsible for
evaluating the risk management controls and the training programs in order to ensure the
ongoing effectiveness ofthe charge card management plan." This is hardly adequate to
suffice OMB's intent, which is to identify specific risks associated with each agency's
purchase card program and what is being done to overcome the risks identified. In
addition, the Plan does not cover all of the required elements. For example, strategic
sourcing, refund management, and tax recovery efforts are not covered. Further, reviews
and analysis performed by NAA are not established in NARA policies and procedures.

Based on OMB Circular A-123, Appendix B, the elements required in the charge card
management plan are:
   •	   Identification of key management officials and their responsibilities for each charge card
        program. These officials will include, but are not limited to, Agency/Organization
        Program Coordinator, Approving Officials or other equivalent officials, and other
        accountab1e/billing officials;
   •	   Establishment of a process for formal appointment of cardholders and approving 

        officials, where applicable; 

   •	   Description of agency training requirements;
   •	   Management controls, policies, and practices for ensuring appropriate charge card usage
        and oversight of payment delinquencies, fraud, misuse, or abuse;
   •	   Establishment of appropriate authorization controls;
   •	   Implementation of policies and practices to ensure strategic sourcing consistent with
        Chapter 8 of this Guidance;
   •	   Explanation of how available reports and data are used for monitoring delinquency,
        misuse, performance metrics, spend analysis, and other relevant transactions and program
        management issues;
   •	   Documentation and record retention requirements;
   •	   Recovery of charge cards and other documentation when employees terminate
        employment, and if applicable, when an employee moves to a different organization; and
   •	   Description of how the agency will ensure the ongoing effectiveness ofthe actions taken
        pursuant to this Guidance, including, but not limited to, evaluating the effectiveness of
        training, risk management control, refund management controls,strategic sourcing
        policies, and tax recovery efforts.




                                                  7

                             National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


Controls established in meeting the requirements of OMB Circular A-123, Appendix B
must be included in internal agency regulations, procedures, and training material.

NABF stated they did not include all of the procedures relating to the Purchase Card
Program in NARA's Plan. In addition, NAA has stated they lack resources to address all
risks in their review of the purchase card program and that other priorities come before
revising outdated policy and procedures.

We evaluated the effectiveness of certain controls. For example:

   • 	 We evaluated the number of cardholders under each approving official. NARA's
       average span of control is 2.6 cardholders to every approving official, which is
       reasonable and well within General Services Administration (GSA) recommended
       ratio of one approving official for every seven cardholders. However, three
       approving officials had control of more than seven cardholders. Further review
       determined that nine approving officials reviewed more than 50 transactions a
       month on average, which is excessive based on GSA guidance.

   • 	 We also evaluated whether the approving official was a higher-level official as
       required by NARA's Procurement Guide, Chapter 5, Simplified Acquisition
       Methods. We found two instances where the approving official's grade level was
       lower than the cardholder. In these instances, the cardholders were not the
       supervisor of the approving official.

With millions of dollars at risk, it is not only important to establish controls, but it is
critical for management to evaluate the effectiveness of those controls. Written policies
and procedures are critical in assuring that internal controls are established and
communicated to employees. Effective internal control helps in managing change to
cope with shifting environments and evolving demands and priorities.

RECOMMENDATIONS

   4. 	 The Assistant Archivist of Administration should direct the A/OPC to ensure all
        elements ofOMB Circular A-123, Appendix B are covered in NARA's Purchase
        Charge Card Management Plan including an explanation justifying action not
        taken in areas not covered, such as strategic sourcing, refund management, and
        tax recovery efforts.

       Management Response:

       Management concurred with our recommendation.


   5. 	 The Assistant Archivist of Administration should direct the A/OPC to develop a
        plan for evaluating controls in order to ensure the ongoing effectiveness of
        training controls, risk management controls, refund management controls, and tax


                                                8

                           National Archives and Records Administration
                                                                            NARA OIG Report No. 08-02


        recovery efforts. For example, the Alope should identify risks over the purchase
        card program, identify controls addressing those risks, and define how the
        controls will be evaluated and how often.

        Management Response:

        Management concurred with our recommendation.


     6. 	 The Assistant Archivist of Administration should ensure controls identified in the
          Plan are included in internal agency policy and procedures.

        Management Response:

        Management concurred with our recommendation.


     7. 	 The Assistant Archivist of Administration should direct the Director ofNAA to
          review the activity of the three approving officials controlling more than seven
          cardholders and the nine approving officials reviewing, on average, more than 50
          transactions a month to determine whether approving official's duties need to be
          adjusted based on the organization's environment.

        Management Response:

        Management concurred with our recommendation.


     8. 	 The Assistant Archivist of Administration should direct the Director ofNAA to
          work with the Regional Administrator ofthe Northeast Region (NRA) to change
          the approving official to an approving official whose grade level is higher than the
          cardholders.

        Management Response:

        Management concurred with our recommendation.


3.    Procurement Files Not Adequately Documented

Procurement files maintained by NAA lacked documentation supporting delegation of
authority, spending limits, and training. This condition exists due to an oversight on the
part of management to include guidance pertaining to records disposition over purchase
card appointment records. In addition, NAA stated that the NARA application for
purchase card and approving official is not needed after NAA prepares a letter of
appointment as a cardholder or approving official. The Government Accountability


                                                  9

                             National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


Office (GAO) requires appropriate documentation of transactions and internal control.
When procurement files are not adequately maintained, there is no evidence supporting
appointment justifications, training, appointment letters, individual limitations on
procurement authority, and related records pertaining to purchase cardholders and
approving officials.

Based on our review of procurement files:

• 	 A procurement authority letter was not included in 10 procurement files. In addition,
    the documentation in one cardholder's procurement files did not agree with their
    single purchase limit, and the documentation in two cardholder files did not agree
    with their monthly limits in the Citibank system.
• 	 The documentation in seven procurement files did not demonstrate that the
    employees's training was up to date during the scope of audit sample selected. In
    addition, the NARA Citibank Liaison's training was not up to date during our audit
    period. Three employees updated their training after our scope period.
• 	 In two instances, the application included evidence that the cardholder did not meet
    the relevant government experience requirement at the time the application was
    approved.

GAO's Standards for Internal Control in the Federal Government states that
management is responsible for developing the detailed policies, procedures, and practices
to fit their agency's operations. Internal control need to be clearly documented and
should appear in management directives, administrative polices, or operating manuals.

NARA's Purchase Charge Card Management Plan refers to NARA File Maintenance and
Records Disposition Manual 203, Chapter 5, item 514 as guidance for maintaining
training certificates, but does not indicate maintaining applications or letters of
appointment for purchase cardholders and approving officials. Based on NARA File
Maintenance and Records Disposition Manual 203, Chapter 5, item 514, program offices
and NAA must maintain the appointment justifications, copies of training certificates,
appointment letters, individual limitations on procurement authority, and related records
pertaining to the designation of contracting officers and contracting officers technical
representatives until the designation is cancelled. However there is no NARA guidance,
due to an oversight on the part of management, pertaining to records disposition over the
NARA application for purchase cards and approving officials, appointment letters, and
copies of training certificates for purchase cardholders and approving officials.
NAA stated the NARA application for purchase card and approving official is not needed
after NAA prepares a letter of appointment as a cardholder or approving official because
the letter of appointment supports the cardholder's authority and spending limit,or the
approving official's authority. However, without the NARA application for purchase
card and approving official documented in the procurement file, there is no evidence
supporting the program offices' approval, spending limit request, organization's need for
a purchase card, and NAA's evaluation that the cardholder and approving official meets
the education, training and experience requirements. When procurement



                                               10
                           National Archives and Records Administration
                                                                           NARA OIG Report No. 08-02


files are not adequately maintained, the risk increases that there is a lack of evidence
supporting delegation of authority, spending limits, and training.

RECOMMENDATIONS

   9. 	 The Assistant Archivist of Administration should direct the Director ofNAA to
        notify and work with NARA Records Management Staff (NHR) to determine
        whether the Application for Purchase Card and Approving Official, copies of
        training certificates, appointment letters, and related records pertaining to the
        appointments for cardholders and approving officials need to be included in a
        NARA Record Schedule and maintained as part of each cardholder and approving
        officials' procurement file supporting the program offices' supervisory approval,
        the organizational need for a purchase card, NAA's evaluation and approval, and
        NAA's delegation of authority.

       Management Response:

       Management concurred with our recommendation.


4. 	 NARA Listing of Cardholders And Approving Officials Is Not Accurate

NARA's listing of cardholders and approving officials contains differences in spending
limits and approving officials than those reported in the Citibank system. This condition
exists because comparisons between the NARA Listing and Citibank system data are not
being performed by management. The Treasury Financial Manual (TFM) requires
management to maintain a current list of cardholders and approving officials. As a result,
NARA's listing is inaccurate and certain information in the Citibank System maybe
inaccurate. In order to conduct relevant reviews and analysis of cardholders and
approving officials, the information needs to be accurate.

We found the following differences:
• 	 Two cardholder's monthly limits on the NARA listing of cardholders were different
    than those limits on Citibank's account listing.
• 	 One person listed on the Citibank's account listing as closed was listed on the NARA
    listing of cardholders as open.
• 	 One cardholder was listed twice on the NARA listing.
• 	 One cardholder is not listed with the correct approving official on the NARA Listing.
• 	 Two cardholders in the Citibank system are not listed as cardholders on the NARA
    listing.
• 	 Four approving officials listed on the NARA Listing did not agree with the Citibank
    system.
• 	 Five approving officials listed in the Citibank system were not included on the
    NARA listing or should not be in Citibank system with approving authority.
• 	 Two approving officials were listed as approving officials for their own card account
    within the Citibank System.


                                                11
                            National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


TFM, Chapter 4500, section 4525 states that management of the purchase card program
includes maintenance of a current list of cardholders and approving officials.

The differences between NARA's listing of cardholders and approving officials and the
Citibank system are due to NABF staff not periodically comparing the NARA listing of
cardholders and approving officials that NABF prepares based on Citibank purchase card
account applications and NAA procurement authority letters received from NAA to
Citibank reports. Thus, there is a risk that an accurate list of cardholders and approving
officials does not exist, that cardholders may have higher spending limits in the Citibank
system than approved by NAA, or that approving officials can approve their own
transactions increases. In order to conduct relevant reviews and analysis of cardholders
and approving officials, the information needs to be accurate.

RECOMMENDATIONS

10. The Assistant Archivist of Administration should direct the Director ofNAA to
    correct the errors on the NARA listing of cardholders and approving officials.

   Management Response:

   Management concurred with our recommendation.


11. The Assistant Archivist of Administration should direct the Citibank Liaison to
    compare the NARA listing to Citibank generated reports for completeness and
    accuracy and work with the Director ofNAA on adjusting the NARA Listing.

   Management Response:

   Management concurred with our recommendation.


12. The Assistant Archivist of Administration should direct the Citibank Liaison to work
    with Citibank on developing a custom report of cardholders, related approving
    officials, related alternate approving officials, spending limits, organization and
    location for easier comparison to NARA's listing of cardholders and approving
    officials.

   Management Response:

   Management concurred with our recommendation.




                                               12
                           National Archives and Records Administration
                                                                             NARA OIG Report No. 08-02


5. 	 Procurement Request And Transactions Not Adequately Supported

Cardholders did not maintain sufficient documentation supporting procurement requests
and transactions as required by the NARA Procurement Guide. This condition exists
because approving officials approved transactions despite inadequate support. Online
approvals by the cardholder and approving officials do not provide sufficient evidence to
determine if a reconciliation and certification were actually performed. NARA policy
requires supporting documentation, such as purchase orders, evidence of competition and
packing slips. Without supporting documentation and without testing the effectiveness of
the approving official process, the risk of fraud, waste, and abuse increases.

We found that:

a. 	   Ten transactions lacked sufficient procurement request documentation.
b. 	   Four transactions lacked sufficient transaction/invoice documentation.
c. 	   Nine transactions over $2,500 were not matched to the purchase order.
d. 	   Documentation could not be found for one transaction due to storage of documents
       during an office move.

NARA Procurement Guide establishes that the cardholder must obtain approval from an
approving official prior to purchase; review and reconcile electronic transactions; and
ensure that an audit trail is maintained. The cardholder should obtain a sales slip or
packing slip and maintain documentation with the purchase card documentation files.
Contracting personnel must document competitive orders over $2,500. Purchases over
$2,500 must be place using a purchase order (SF 1449, Solicitation/Contract/Order for
Commercial Items or OF 347, Order for Supplies or Services). Bureau of Public Debt's
guidance on using the Citibank Online System states that users have the ability to match
expenses to purchase orders within the Citibank Online System by entering the purchase
order, line, shipment, and distribution number in the description line and selecting
'matching order' for the accounting string code. NARA Interim Guidance
402-6 provides procedures for purchase card approvals.

NARA relies upon online reconciliation and approval capabilities. The example at the
top of the next page demonstrates NARA's online reconciliation and approval sign-offs.
The figure shows that the purchase card statement ended on October 25, 2006. The
cardholder submitted the purchase card statement for review by the approving official on
October 26, 2006 and the approving official approved the purchase card statement on
October 27,2006.




                                                  13 

                              National Archives and Records Administration
                                                                                            NARA OIG Report No. 08-02


            Read Notes

            CARDHOLDER                                              Cardholder Name
            ACCOUm NUMBER                                           ~                                        

            STAiEMHH PERIOD                                         0912312006 . 1012<112005 





               If you se e an envelope to the left of an entry. then you ca n clicl< on it to IIi E!W th e note.
               Entries lIIJithout an @nvelope are 51atus ch ang@s onlv.

               The following notes have been attached to this account:
                                                 Approving Official Name
                                                 10127120068:22:35 AM
                                                 Closed

                                                 Cardholder Name
                                                 1012612006 10::57:45 AM
                                                 Pending Approvill

                                                 Cardholder Name
                                                 1012:5120069:01:4G PM
                                                 New


NARA relies upon online reconciliation and approval capabilities, but these processes do not
provide sufficient evidence to determine if a comprehensive reconciliation and certification
were actually performed. Without supporting documentation, cardholders can not exercise
due diligence in reconciling their statements and an approving official has no means of
reasonably determining whether the item purchased represents a legitimate government need
or is fraudulent, improper, or abusive.

NAA performs oversight of purchase card transactions by reviewing high use cardholder
transactions. NAA also monitors transactions over the micro-purchase thresholds which
have not been matched to a purchase order. Due to the results of their monitoring, NAA
limited many cardholder's authority to the new micro-purchase level of $3,000 and
decreased many monthly purchase limits. NAA also, for some cardholders, reviews all
contract officer actions and has counseled cardholders and approving officials to better
document bids.

RECOMMENDATIONS

13. The Assistant Archivist of Administration should direct the Director ofNAA to
    establish written policies and procedures to evaluate the effectiveness of cardholder
    reconciliations and approving officials certifying duties.

       Management Response:

       Management concurred with our recommendation.




                                                             14 

                                  National Archives and Records Administration
                                                                           NARA OIG Report No. 08-02


6. Accounting Budget Object Classes and Accounting Fund Misclassified

Purchase cardholders misclassified over $109,000 in expenditures to incorrect budget
object classes. In addition, $61,000 of Repairs and Restoration obligated funds, based on
an established contract, were expended from the Operating Expense fund. NARA
Admin., 201, Chapter 5 provides for proper classification of obligations. This condition
exists due to of several reasons: 1) cardholders may not reallocate transactions from their
default accounting string; 2) approving officials may not have verified the funds were
appropriately allocated; 3) descriptions of budget object class codes are not
comprehensive and do not include examples specific to NARA; or 4) NABF does not,
due to other priorities, periodically evaluate the effectiveness of the controls over the
allocation of expenditures to ensure consistency and appropriateness of accounting fund
and budget object class used. As a result, external reports by budget object class were
inaccurate and funds expended from the operating expense fund could have been used for
other operating expenses had the proper fund allocation been used based on the contract.
Proper accounting classification is important because management makes decisions based
on financial data.

In 19 instances cardholders did not allocate the transaction to the most appropriate budget
object class.

 Transaction     Description of Purchase           BOC Used                       BOC that should
 Amount                                                                           have been used

 $    150.00     Copier and coin box lease         Miscellaneous                  Non-ADP Rentals
                                                   Services
 $ 1,759.55      Conference table chairs           General Supplies               Other Equipment - Non
                                                                                  Capitalized
 $    695.00     Training                          Services of Other              Government Sourced
                                                   Agencies                       Training
 $    540.00     IT software services              General Supplies               Management and
                                                                                  Professional Support
                                                                                  Services
 $    180.27     Gift store supplies               Miscellaneous                  General Supplies
                                                   Services
 $   2,504.70    Copier Maintenance                Miscellaneous                  Operations and
                 Agreement Support                 Services                       Maintenance of Equipment-
                                                                                  Non ADP
 $   2,743.33     Newspaper ad                     Miscellaneous                  Advertising
                                                   Services
 $   5,773.00    Visual case - special use         Miscellaneous                  Other Equipment - Non
                 furniture                         Services                       Capitalized
 $   2,500.00    Painting services                 Miscellaneous                  Repairs and Maintenance
                                                   Services
 $ 50,000.00      Renovating services              Miscellaneous                   Repairs and Maintenance
                                                   Services
 $   3,329.56     Reception Desk                   General Supplies               Other Equipment - Non
                                                                                  Capitalized
 $   1,595.00     Powerlite projector              General Supplies               ADP Equipment -Non-
                                                                                  Capitalized




                                                15 

                            National Archives and Records Administration
                                                                            NARA OIG Report No. 08-02

Transaction       Description of Purchase          BOC Used                        BOC that should 

Amount                                                                             have been used 

* $ 7,680.01      Toner and ink cartridges          General Supplies               ADP Supplies

$    2,500.00     Printing services -               General Supplies               Commercial Printing and
                  Admission Tickets                                                Duplication
*$ 5,207.10       Toner                             General Supplies               ADP Supplies

$    3,041.00     Ice machine                       General Supplies                Other Equipment-Non
                                                                                    Capitalized
$ 15,261.38       2 Digital Video Recorder          General Supplies                Other Equipment-Non
                                                                                    Capitalized
 $   2,500.00     Printing services - brochure      General Supplies                Commercial Printing and
                                                                                    Duplication or Advertising
 ~   1,350.00     Annual maintenance of             Miscellaneous                   Operations and
                  Scanner                           Services                        Maintenance of Equipment-
                                                                                    NonADP
 $109,309.90

 *$12,887.11 	    Does not affect the external reporting for the agency as the costs of all BOC's that
                  begin with 26 are rolled together and reported externally as one amount.

In two instances cardholders did not allocate the transaction to the accounting fund based
on the contract.

Transaction       Description of Purchase           Accounting Fund                 Accounting Fund that
Amount                                              Used                            should have been used
$ 25,000 	        Room 19E3 SCIF                    NAR0300SE06XX                   NAR0302SE06XX Repairs
                  Mod ifications 	                  Operating Expenses              and Restorations
 ~   36,000       Room 506 SCIF                     NAR0300SE06XX                   NAR0302SE06XX Repairs
                  Modifications                     Operating Expenses              and Restorations
 $   61,000

NARA Admin., 201, chapter 5, Budget, Part 6.54c states that "Obligations must be
classified by operating budget area, activity, project, function, organization, and by object
class and cost element as prescribed by the official accounting system for adequate
review of financial operations." NARA Financial Reference Manual 2006 provides a
listing and description of budget object classes that should be used. In addition, external
reporting by obj ect class is required by OMB Circular A-II and 31 USC 11 04(b).

In general, cardholders allocate expenditures to the budget object class they feel best
describes the purchase based on the descriptions of budget object classes. Transactions
allocated to miscellaneous services and general supplies are common budget object codes
because of the generality of the description, and these are usually set as the cardholders
default budget object code. Further, cardholders and approving officials may not be
verifying the transaction was allocated to the most appropriate budget object class or
fund. NARA's descriptions of budget object classes are not comprehensive and do not
include examples specific to NARA.




                                                 16
                             National Archives and Records Administration
                                                                           NARA OIG Report No. 08-02


NABF does not, due to other priorities, periodically evaluate the effectiveness of the
controls over the allocation of expenditures to ensure consistency and appropriateness of
accounting fund and budget object class used. Cardholders and approving officials may
not think: budget object classifications are important ifNABF does not review, question,
and correct misclassifications.

As a result, external reports by appropriated fund and budget object classes contain
inaccuracies. In addition, funds expended from the Operating Expense fund could have
been available for other operating expenses had the proper fund allocation been used
based on the applicable contracts. Proper accounting classification impacts management
decisions.

RECOMMENDATIONS

14. The Assistant Archivist of Administration should direct NABF to clarify budget
    object class guidance, by expanding the descriptions and providing examples and
    exceptions.

   Management Response:

   Management concurred with our recommendation.


15. The Assistant Archivist of Administration should direct the NABF to incorporate a
    review of budget object class and fund codes in their monthly review of purchase card
    transactions. For example, the Citibank: Liaison could review a sample oftransaction
    for proper coding.

    Management Response:

   Management concurred with our recommendation.


16. The Assistant Archivist of Administration should direct the NOPC to communicate
    to cardholders and approving officials the purpose and importance of proper BOC
    classification and fund classification, and their responsibility in changing the default
    allocation, if needed.

    Management Response:

    Management concurred with our recommendation.




                                                17
                            National Archives and Records Administration
                                                                           NARA OIG Report No. 08-02


7. Accountable Property Guidance Needed

We found instances where there was no evidence that accountable property purchased
using government purchase cards was recorded in NARA's Personal Property
Management System (property system). Accountable property was not recorded because
there is no clear guidance for purchase cardholders to follow when purchasing
accountable property. GAO requires appropriate documentation oftransactions and
internal control. Accordingly, there is a resulting increase in the risk of loss or theft of
accountable property not recorded in the property system.

Eight transactions in our sample included accountable property purchased using the
purchase card. The following items were not recorded in the property system:

              Description                        Amount
 2 Printers                                  $     720.00
 Powerlite Projector                     $       1,595.00
 ADRES Computer System Items             $ 10,979.43
 Scanner                                 $ 15,995.00
   Total                                $ 29,289.43

NARA's Property Managers Users Guide includes printers, projectors, computer
processors, and scanners as sensitive items that are considered accountable property
which must be accounted for in NARA's Personal Property Management System. It also
states that offices with acquisition authority must forward to NAF a copy ofNA Form
5007 for credit card purchases. However, NARA's Procurement Guide states that NA
Form 5007 is optional for purchase card purchases not exceeding $2,500.

NARA is revising its accountable personal property threshold from $1,000 to $3,000 and
will include changes to sensitive items, limiting sensitive items to laptop computers,
weapons, and digital cameras.

GAO's Standards/or Internal Control in the Federal Government states that
management is responsible for developing the detailed policies, procedures, and practices
to fit their agency's operations. Internal control need to be clearly documented and
should appear in management directives, administrative policies, or operating manuals.

Only 15 percent of cardholders are also Property Accountable Officers (P AO) and may
be familiar with the Property Managers User Guide. Otherwise, cardholders who are not
PAOs may not be familiar with the Property Managers User Guide. NARA policies and
procedures do not provide an adequate process for ensuring that accountable property
obtained by purchase card is recorded in the property system.

Accountable property obtained with purchase cards includes items that can be easily
pilfered, such as computers, camera, scanners, TVs, and DVD players. Entering such



                                                   18 

                            National Archives and Records Administration
                                                                           NARA OIG Report No. 08-02


items in the property records is critical to help assure accountability and financial control
over these assets and deter theft or improper use of government property.

We acknowledge the change in policy regarding sensitive items and the change in the
accountable personal property threshold. However, existing controls would still allow
sensitive items purchased by credit card not to be recorded in the PPMS.

RECOMMENDATIONS

17. The Assistant Archivist of Administration should direct the Property Management
    Officer to develop policies and procedures to provide reasonable assurance that
    accountable property assets acquired with a purchase card are entered into an
    accountable property system immediately after being received. Cardholders should be
    required to contact accountable property officers (or others acting in a similar
    capacity) before acquiring accountable property, or within a reasonable time
    thereafter, to ensure the property is properly bar coded and tracked in the property
    system. This should be completed prior to placement ofthe asset in service.

   Management Response:

   Management concurred with our recommendation.


18. The Director of Policy and Planning Staff (NPOL) should communicate the new
    policy to all cardholders and approving officials and be included in any NARA
    training related to purchase cards.

    Management Response:

   Management concurred with our recommendation.


19. The Assistant Archivist of Administration should direct the Property Management
    Officer to ensure the accountable property listed above meeting NARA's current
    requirements are inventoried and recorded in the property system.

    Management Response:

    Management concurred with our recommendation.


8. Split Purchases

There were two instances where recurring monthly purchases for the same service were
made exceeding the micro purchase threshold. The individual monthly transaction costs
were below the micro purchase threshold. These transactions were not made against


                                                19 

                            National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


existing procurement agreements. NARA's procurement guidance prohibits making
"multiple, recurring purchases for the same item or service, if the total ofthe multiple
purchases is greater than $2,500" without the use of a procurement agreement, such as a
contract, purchase order, or delivery order. The use of the purchase card for recurring
purchases is not intended to avoid competition and may lead to an unauthorized
commitment of funds if not made by a contracting officer with the proper authority using
proper procurement agreements.

In one instance a cardholder routinely used the Defense Logistics Agency Document
Automation and Production Service (DAPS) for copying workbooks for classroom
instruction. In one month's activity, the purchases made with DAPS exceed the micro
purchase limit of$2,500.

In the second instance a monthly cost of $219.13 was paid for the lease of a copier, which
would total $2,629.56 for the year, again exceeding the micro purchase limit.

NARA's Procurement Guide, Chapter 5, Simplified Acquisition Methods defines Split
Requirement as "Multiple, recurring purchases for the same item or service, if the total of
the multiple purchases is greater than $2,500, are not allowed ... Typically, multiple
purchases of the same item or service actually equal one requirement and should be
handled as such. Purchasing the same item or service separately could lead to an
unauthorized commitment ...because the actual value, the total of the multiple purchases,
is greater than the purchase card limit..."

Based on NARA's Procurement Guide, Part 1, General Acquisition Policy, Chapter 2,
section 4, purchases above the micro-purchase threshold using the government purchase
card are permissible only by warranted contracting officers, as a method of payment
against existing award documents, who must promote competition.

The individual transaction costs of the split purchases were below the micro purchase
threshold, and they were not questioned or prevented by their approving official. In one
case the cardholder was not a contracting officer and exceeded their authorized limit;
however the cardholder felt this price was fair and better than others vendors assessed.

The purpose of the micro purchase limit is to require purchases above established limits
to be subject to additional controls to ensure they are properly reviewed and approved
before the agency obligates funds. By allowing these limits to be circumvented, NARA
had less control over the obligation and expenditure of its resources. In addition, split
purchases increase the risk goods or services can be procured without competition.

The Acquisition Services Division has taken action with one vendor and is developing an
NARA-wide interagency agreement with DAPS for copying services.




                                               20
                           National Archives and Records Administration
                                                                          NARA OIG Report No. 08-02


RECOMMENDATIONS

20. The Assistant Archivist of Administration should direct the Director ofNAA to use
    procurement agreements, such as Delivery Orders, with vendors for filling repetitive
    needs for supplies or services. Various procurement agreements can be designed to
    reduce administrative costs in accompanying small purchases by eliminating the need
    for issuing individual purchase documents.

   Management Response:

   Management concurred with our recommendation.




                                               21
                           National Archives and Records Administration
,                       National Archives and Records Administration
                                                                                              8601 Adelphi Road
                                                                             College Park, Maryland 20740-6001


    Date:      NOV 0 ~ 2007

    To:          NPOL

    From:        NA
                                                             •
    Subject:     OIG Draft Report No. 07-14, Audit ofNARA's Purchase Card Program


    Thank you for the opportunity to colTI1.l1ent on the Draft Report No. 07-14: Audit ofNARA's Purchase
    Card Program.

    We concur with all recommendations made in this draft report. Based on discussions with - b(6)­
    ofyour office, we understand that the following changes will be made to the fInal report: (1) The name
    "Office of Administrative Services" will be corrected throughout the report to "OffIce of
    Administration", (2) Recommendation 8 willbe revised to be specifIc to the instance in the fmding, and
    (3) Recommendation 15 will direct that an NABF staff member be assigned rather than the more specifIc
    Citibank Liaison..                                                                                     .

    Please nqte that actionsto satisfy some of the recommendations are already underway. If you have any
    questions concerning these comments, please contact via e-:mail or telephone,     /, (£'),       at
    301-837-J-,0r--6{of, - at 301-837-1­



      g~e,d~                                              

    ADRIENNE C. THOMAS
    Assistant Archivist for Administration

    Attachment




                                      NARA's web site is http://www.archives.gov
